<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, MARCH 18, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:47 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Murkowski.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN T. AYERS, ACTING ARCHITECT OF THE 
            CAPITOL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. Good afternoon, everyone, and welcome. 
Senator Murkowski asked me to go ahead and start because she is 
going to be a bit delayed but will be here in short order. So 
that is what we will do.
    Well, we meet this afternoon to take testimony on the 
fiscal year 2011 budget request for the Architect of the 
Capitol and the Office of Compliance. I want to welcome our two 
witnesses today: Stephen Ayers, Acting Architect of the 
Capitol; and Tamara Chrisler, Executive Director of the Office 
of Compliance.
    I also want to welcome my good friend ranking member, 
Senator Murkowski, when she gets here, and I am hopeful that 
other members of the subcommittee, Senator Pryor and Senator 
Tester, may be able to join us as well.

             <greek-l>AOC deg.CONGRATULATIONS ON NOMINATION

    Mr. Ayers, I want to first congratulate you on your recent 
nomination by the President to serve as the next Architect of 
the Capitol. You will be only the 11th person in history to 
serve in this capacity, which is really quite impressive, and 
on behalf of the Senate and particularly this subcommittee, I 
want to thank you for your service over the last 3 years as 
acting Architect of the Capitol where your accomplishments 
include the opening of the Capitol Visitor Center (CVC), the 
staging of the 56th Presidential inauguration, and the opening 
of the Library of Congress' National Audiovisual Conservation 
Center, to name just a few. You have served us well in this 
capacity and we look forward to moving toward your confirmation 
by the Senate in the very near future.
    Mr. Ayers. Thank you very much, Mr. Chairman.
    Senator Nelson. I appreciate that. I do not want to in any 
way preempt the Senate from that effort on confirmation or to 
get ahead of anything, but I am certain that that is in the 
near future.
    I also want to congratulate and acknowledge the hard work 
and dedication of your staff of 2,600 employees. We rely on 
these individuals for so many services around here, and this 
year, in particular, with the record snowfalls, I want to 
especially thank Ted Bechtol of your Capitol Grounds staff and 
his team for the long hours they put in removing more than 
11,000 tons of snow from the complex. We are deeply grateful 
for their dedication and for the commitment of your entire 
staff.

          <greek-l>AOC OOC deg.FISCAL YEAR 2011 BUDGET REQUEST

    Your budget request this year totals $755 million, an 
increase of $153 million, or 25.5 percent over current year. 
Now, I know you faced a difficult challenge when putting 
together your budget request, attempting to balance 
maintenance, security, energy efficiency, and new construction 
projects on an aging, historical infrastructure within limited 
resources. Hopefully, you understand the position the 
subcommittee is in, in trying to hold the line on spending 
while meeting the critical needs of your agency. So we 
definitely have our work cut out for us this year, and I look 
forward to hearing your testimony shortly.
    Ms. Chrisler, the fiscal year 2011 budget request for the 
Office of Compliance totals $4.7 million, an increase of 
$300,000, or 6.7 percent over the current year. We appreciate 
the efforts that both of your agencies have made to work 
cooperatively toward resolving the many fire and life safety 
needs around the complex, once again, within limited resources. 
So we look forward to your testimony as well and to discussing 
the status of health and safety conditions throughout the 
Capitol complex.

               <greek-l>AOC deg.BUDGET INCREASE CONCERNS

    We held our first hearing of this fiscal year 2 weeks ago 
and just in case you missed it--I am sure you did not--I would 
like to reiterate a few concerns that were raised during that 
hearing. I am disappointed in some respects that this 
subcommittee has, once again, been presented with a large 
budget increase in fiscal year 2011. The fiscal year 2011 
legislative branch budget request totals $5.1 billion, or 10 
percent over current year. Given the fact that the President 
has made it clear about holding the line on spending, this 
increase is not acceptable and it is not doable. The fact is 
that this country remains in economic turmoil and the American 
taxpayers simply will not tolerate unnecessary Government 
spending at a time of unemployment. It is questionable whether 
they will tolerate necessary Government spending at this time.
    And last year, we received an overall increase of 5 percent 
in the legislative branch bill, including some fairly large 
ticket items for the House, over which we have no control. But 
that is history.
    And I have stated repeatedly that I am going to do 
everything I can to hold the legislative branch flat this year. 
I believe we need to lead by example in this subcommittee as 
part of the Government, and we cannot do that by appropriating 
large increases to our agencies. The President sent the message 
loudly and clearly in his State of the Union Address this year, 
noting that families across the country are tightening their 
belts and making tough decisions. The Federal Government must 
do the same, he said. And he announced a 3-year freeze on 
nonsecurity discretionary Government spending, and I think we 
need to do the same on this subcommittee.
    And arriving just in time for my comments, turning it over 
now to our ranking member of the subcommittee, Senator 
Murkowski, for her opening remarks. What great timing.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. And I have to 
tell you it is music to my ears. As I walk in, you are 
repeating the refrain that you and I have made these past 2 
years on these budget hearings about the need for fiscal 
discipline. If we cannot set the example, if we cannot set the 
standard here, how can we expect others outside of our 
institution to exercise that same level.
    But I want to thank you, Mr. Chairman, for calling the 
hearing as we consider the fiscal year 2011 legislative branch 
request from the Architect of the Capitol and the Office of 
Compliance.
    I would like to welcome both of our witnesses here today 
and look forward to the opportunity to discuss some pretty 
important issues on how the agencies that you both represent 
are planning to move forward in the fiscal year. I appreciate 
the way that your offices have continued to work to develop the 
relationship that is necessary for good communication, 
continued cooperation in the common goal that we ensure a safe 
environment for our employees and our visitors while we 
maintain the important historic nature of the surroundings.
    I will start by recognizing Mr. Ayers and congratulating 
you on your official nomination to be the next Architect of the 
Capitol. We anticipate that the confirmation hearing will be 
later on in the spring.

            <greek-l>AOC deg.FISCAL YEAR 2011 BUDGET REQUEST

    As the chairman has mentioned, the Architect of the Capitol 
is requesting $754.8 million, an increase of 25.5 percent over 
the fiscal year 2010 enacted level. Again, the chairman's 
remarks about how we are going to do more with less I think are 
appropriate. I do recognize that the AOC's significant increase 
is associated with $216 million requested for line item 
projects, a fair amount for deferred maintenance, capital 
renewal, capital improvement, capital construction.
    But I do think it is going to be important in our 
discussions here today to figure out how we prioritize these 
projects because it is just simply not going to be possible to 
advance all that is contained within the proposal that we have 
before us. We have got to look for the best possible solutions, 
but it is all about prioritization.
    Ms. Chrisler, I want to thank you for your leadership there 
at the Office of Compliance. While your budget increase is not 
on the level that we are seeing out of the Architect of the 
Capitol's Office, it still is a 6.8 percent increase. I know 
that you probably looked at that and said that this is a lean 
budget and the decisions that went into submitting a request of 
this nature are not easy. We appreciate what goes into it. But 
I think we need to recognize that we continue to pare down the 
agency's request and that we are going to be working to pare 
down the Architect's budget, and that you will be working with 
the Architect of the Capitol in reprioritizing the projects for 
the year ahead.
    I am anxious to hear from both of you this afternoon as to 
how we can all work together to ensure that we are taking care 
of the immediate needs of the historical structures that have 
been left to our care, how we minimize the risks to those who 
work here and to those who visit here every day. It is not an 
easy job, but we know we can do it.
    Mr. Chairman, I look forward to the opportunity to get some 
questions and answers from our witnesses.
    Senator Nelson. Thank you, and I continue to say how much 
of a pleasure it is to be able to work with you and to share 
many of the same ideas about an approach to dealing with the 
budgets and look forward to continuing this year.
    Now I would like to begin with witnesses. Because of the 
timeframe, if it is possible to keep the opening comments to 
somewhere around 5 minutes or something of that nature, the 
rest of your comments will be received and, if written, put 
into the record. So with that, Mr. Ayers, we will start with 
you and then we will hear from Ms. Chrisler. Thank you.

                 SUMMARY STATEMENT OF STEPHEN T. AYERS

    Mr. Ayers. Mr. Chairman and Senator Murkowski, thank you 
for the opportunity to testify today regarding the Architect's 
2011 budget request.
    I would like to first express my thanks to this 
subcommittee and the Congress for its support for the Architect 
over the past year, as we have worked to maintain and preserve 
the Capitol complex.

       <greek-l>AOC deg.ARCHITECT OF THE CAPITOL--PROUD STEWARDS

    Twenty-four hours a day, 7 days a week, and 365 days a 
year, the AOC serves as proud stewards of the most iconic 
buildings and grounds in the world. Nothing demonstrated our 
commitment more than our team's remarkable response to 
``snowmageddon'' last month. AOC crews logged nearly 35,000 
hours to remove more than 11,000 tons of snow to ensure that 
the Congress could continue to conduct its business.
    The AOC had a very successful 2009, a year that began with 
the Presidential inauguration and ended with the first of three 
major blizzards to hit Washington. In between these major 
events, we welcomed more than 2.3 million visitors to the 
Capitol Visitor Center during its first year in operation and 
we carried out numerous projects designed to save energy and 
improve operations.

               <greek-l>AOC deg.FISCAL YEAR 2011 PROJECTS

    In that regard, our fiscal year 2011 budget request focuses 
on projects that are necessary to attend to the critical needs 
of the Capitol complex, and specifically this entails 
addressing a significant backlog of deferred maintenance and 
capital renewal projects, as well as security, life safety, and 
accessibility requirements.
    Mr. Chairman, we are requesting $755 million in fiscal year 
2011, and the projects portion of this budget is devoted to 
addressing these critical issues needing the most urgent 
attention. Although every project on the list in our budget is 
necessary and will ultimately need to be done, we realize that 
not all can be funded in this fiscally challenging year.
    However, we do take our responsibility to identify, 
quantify, and report to the Congress the state of facilities 
and the extent of deferred maintenance very, very seriously. 
Most importantly, our project prioritization tools we believe 
provide the Congress with concrete and practical assessments of 
our infrastructure enabling good decisionmaking about our 
future investments.
    Over the past year, this process has matured to include a 
5-year capital improvements plan, which examines phasing 
opportunities and project sequencing and other factors to 
better facilitate the timing of projects.
    The AOC is committed to making the right choices by doing 
our part on energy savings on Capitol Hill. For 2009, the 
Congress met its energy reduction goals for the fourth year in 
a row and reduced energy consumption by 15.3 percent across the 
Capitol complex.

                  <greek-l>AOC deg.ENERGY CONSERVATION

    To help meet future energy reduction requirements, last 
summer we entered into our first energy-savings performance 
contract to implement energy-saving projects across the House 
office buildings, and in December, we entered into an energy-
savings performance contract for the Senate and the Capitol 
Building. These public/private partnerships will help us 
achieve significant energy reductions over the next several 
years.
    On the operations side, we have been successful in our 
endeavors due to the professional men and women who make up 
this great AOC team. Their commitment to excellence allows us 
to provide exceptional service to the Congress and the visiting 
public every day. In that regard, our annual operating budget 
request for $443 million supports the critical activities 
necessary to support the Congress and the other legislative 
branch agencies.

                <greek-l>AOC deg.CAPITOL VISITOR CENTER

    With regard to accommodating Members' and visitors' needs, 
the Capitol Visitor Center is top in its class. Now in our 
second year of operation, we continue to make improvements to 
our policies and tour procedures, including modifying the 
advance reservation system to give congressional offices more 
flexibility to modify, cancel, and reschedule tour 
reservations. We have also added a congressional staff line at 
the south information desk, increased the number of operators 
to ensure prompt response to phone calls, and are placing staff 
in strategic locations throughout the Capitol Visitor Center to 
improve visitor flow.
    In addition, we continue to hold monthly listening sessions 
with congressional staff to receive feedback and answer 
questions, and to date, more than 5,200 staff members have 
attended our Capitol Visitor Center training program.

                           PREPARED STATEMENT

    Mr. Chairman, the AOC is ready to do what is necessary to 
keep the Capitol complex open and operating every day of the 
year under any circumstances. I am honored and privileged to 
work alongside this great team.
    Thank you again for the opportunity to testify today.
    Senator Nelson. Thank you.
    [The statement follows:]

                 Prepared Statement of Stephen T. Ayers

    Mr. Chairman, Senator Murkowski, and members of the Subcommittee, 
thank you for the opportunity to testify today regarding the Office of 
the Architect of the Capitol's (AOC's) fiscal year 2011 budget request.
    I would like to begin by expressing my thanks to this Subcommittee 
and to the Congress for its support of the AOC over the past several 
years as we worked to fulfill our mission of serving the Congress and 
the American people by maintaining and preserving the U.S. Capitol 
complex. I also very much appreciate, and I'm honored by, the trust the 
President and the Congress have placed in me to lead this dedicated 
group as the nominee to serve as the 11th Architect of the Capitol as 
we continue to address the challenges ahead. We are very aware of the 
need to preserve the historic infrastructure on Capitol Hill while, at 
the same time, recognize the need for fiscal responsibility. It is a 
tremendous honor to have the opportunity to continue to work with this 
very talented team of professionals.
    Twenty-four hours a day, 7 days a week, 365 days a year, the AOC 
team serves Congress as proud stewards of the most iconic buildings and 
grounds in the world. Through our work, we protect the past by 
preserving the historic integrity of the U.S. Capitol complex, we are 
boldly working today to promote a safe and sustainable workplace, and 
we continue to build a legacy of professionalism for generations to 
come.
    Nothing demonstrated our commitment to our mission more than our 
team's remarkable response to the back-to-back blizzards that hit the 
Washington, DC, metro area in early February--otherwise known as 
``Snowmageddon.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Throughout both of these snow emergencies, AOC employees 
successfully cleared the streets, sidewalks, entryways, and parking 
lots across the Capitol complex in order to support the Congress as it 
conducted its business on the weekend and during the following week, 
keeping the complex cleared of snow and ice for Members, staff, and the 
public. At the same time, we continued to operate and maintain all our 
facilities, and the Capitol Power Plant's service continued 
uninterrupted.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    AOC crews logged in nearly 35,000 man hours to remove more than 
11,000 tons of snow. Once the snow had ended, our work did not. Our 
crews continued to remove piles of snow from across the complex, treat 
the sidewalks, streets, and parking lots as the snow melted and re-
froze overnight, and attended to hundreds of trees that were damaged in 
the storms.
    This pride in our work extends throughout the organization. 
Stewardship of the Capitol complex is a unique challenge. The challenge 
is amplified by the historic significance of our buildings and 
landscape, aging physical infrastructure, and day-to-day operational 
requirements. We strive every day to improve the conditions of our 
facilities using innovative technologies and sustainable practices to 
ensure the U.S. Capitol remains the nation's most visible and treasured 
icon of our government for centuries to come.
    Our fiscal year 2011 budget request details a number of projects 
necessary to ensure we address the critical needs of the Capitol 
complex as quickly and effectively as possible. Specifically, this 
entails a significant backlog of deferred maintenance and capital 
renewal projects, as well as security, life-safety and accessibility, 
and environmental requirements. Although every project that we have 
listed in our budget request is necessary, we realize that not all can 
be funded in these fiscally-challenging times.
    However, we take our responsibility to identify, quantify, and 
report to Congress the state of our facilities and the extent of the 
deferred maintenance backlog very seriously. The prioritization tools 
we have developed and refined over the past several years provide 
Congress with concrete and practical assessments of our infrastructure. 
By using these tools, Congress can choose where best to make 
investments in the Capitol complex.
          capital budget request and project planning process
    We are requesting $755 million for fiscal year 2011. The majority 
of our capital budget request is devoted to addressing the critical 
projects we've identified as needing urgent attention, which are 
primarily classified as deferred maintenance. This portion of our 
budget is the most volatile. It fluctuates greatly from year to year 
based on the size and complexity of the projects that have been 
prioritized as having immediate urgency.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Only a small percentage of our requested increase is non-
discretionary for mandatory cost-of-living increases, and other 
operating expenses or contract price increases. We deliberately worked 
to keep the growth of this segment of our budget to a minimum in order 
to maximize the capital budget. This will enable the greatest 
investment as possible in our infrastructure and to allow us to ``buy 
down'' the deferred maintenance backlog.
    As I have discussed at previous hearings, we have successfully 
developed and implemented a robust and balanced process to prioritize 
projects based on the facilities' conditions and the level of 
maintenance required to ensure they remain functional and viable 
working environments.
    This process uses several tools in the formulation of the project 
prioritization list including Facility Condition Assessments, the 
Capitol Complex Master Plan, and Jurisdiction Plans. Over the past 
year, this process has matured to include a Five-Year Capital 
Improvements Plan, which examines phasing opportunities, project 
sequencing, and other factors to better facilitate the timing of the 
execution of major deferred maintenance and capital renewal projects. 
As I discussed earlier, these tools assist us and the Congress in 
looking ahead and enable us to plan when and where to make future 
investments in our facilities and infrastructure. We also took into 
consideration the challenge of executing required programs efficiently 
throughout this process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As this chart demonstrates, we continue to invest most of our 
resources in infrastructure projects that are designed to address the 
backlog of deferred maintenance.
    Tied into the overall planning process is the Line Item 
Construction Program. During this process, projects are scored against 
six criteria: preservation; regulatory compliance; mission; economics; 
security, and energy efficiency and environmental quality.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As we developed our fiscal year 2011 budget, we considered $373 
million worth of capital projects, and are requesting $216 million for 
Line Item Construction Program projects. The remaining $157 million in 
projects were considered, but were not submitted in this budget 
request, and therefore remain on the deferred project list.
    As I mentioned earlier, our Capital Budget request is quite 
volatile from year to year based on the projects that rise to the top 
of the priority list. The AOC's fiscal year 2011 Capital Budget request 
includes nine projects that each requires an investment of $10 million 
or more. They are:
  --Utility Tunnel Improvement Program;
  --Egress Projects in the Thomas Jefferson Building;
  --Capitol Building Dome Skirt Rehabilitation;
  --Capitol Building Exterior Stone and Metal Preservation;
  --Copper Roof Replacement and Fall Protection System for John Adams 
        Building;
  --Roof and Skylight Replacement for Hart Senate Office Building;
  --Refurbishment of Federal Office Building 8;
  --Task 9, Phase II Infrastructure Improvements in Dirksen Senate 
        Office Building; and
  --Collection Storage Module V for Library of Congress.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chairman, I'm pleased to report that our Utility Tunnel 
Improvement Program is on schedule to meet the June 2012 completion 
date. In addition, by utilizing our comprehensive planning process, we 
have been able to further reduce the program's cost. This was 
accomplished by collecting new information from engineering studies, 
visual examination of the exterior of the tunnels, and additional 
structural testing. Funds were also saved through an efficient 
procurement process and execution plans that consolidated work 
elements, thereby saving contract overhead costs. These actions enabled 
the AOC to reduce our fiscal year 2010 request and re-phase some work, 
thereby reducing the total projected cost of the program from $186.4 
million to $176.13 million. We continue to seek additional ways to 
further reduce the program's total cost.

            ENERGY CONSERVATION AND SUSTAINABILITY PROGRAMS

    The AOC is committed to making the right choices and doing our part 
to save energy on Capitol Hill. With Congress' support, we have 
implemented a number of programs and completed a variety of projects 
designed to produce significant results in saving taxpayer dollars and 
conserving our natural resources. One of our biggest challenges is 
ensuring that we preserve the historic elements of our buildings, while 
at the same time making them as energy efficient as possible. That's 
why the Architect of the Capitol is committed to using sustainable 
design practices whether we're building a new facility or maintaining 
one that's 100 years old, like the Russell Building.
    For fiscal year 2009, the Congress met its energy reduction goals 
for the fourth year in a row, and reduced energy consumption by 15.3 
percent across the Capitol complex. This exceeded the fiscal year 2009 
requirement of a 12 percent reduction (as compared to the fiscal year 
2003 baseline). For fiscal year 2010, a 15 percent reduction is 
required under the Energy Independence and Security Act of 2007, (3 
percent reduction per year for a 30 percent reduction by 2015), and in 
fiscal year 2011, an 18 percent reduction is required.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To meet these requirements to further reduce energy consumption, we 
have requested $11.2 million in fiscal year 2011 for energy and 
sustainability projects. In addition, we're asking for an increase of 
nearly $10 million in operations funding for energy and sustainability 
purposes. These sustainable practices include using low-impact 
materials, installing energy efficient equipment, incorporating durable 
and high-performance systems and materials, investing in renewable 
energy, and encouraging and supporting a culture that promotes reuse 
and recycling. This includes using food waste, garden clippings, and 
other green waste, and repurposing it as compost for flower beds, and 
sustaining other plantings throughout the Capitol complex.
    To better identify and evaluate energy savings opportunities in 
Capitol complex facilities, we have been using energy audits since 
fiscal year 2007. The data collected help us realize better cost-
benefit results, and determine where best to invest our resources.
    In December, the AOC entered into an Energy Savings Performance 
Contract (ESPC) in the Senate Office Buildings. The project includes 
nearly $42 million in facility infrastructure upgrades in the Hart, 
Dirksen, and Russell Senate Office Buildings, as well as the Senate 
Underground Garage, and Senate Employees' Child Care Facility.
    Highlights of this project include:
  --Energy-efficient lighting upgrades of nearly 31,000 fixtures in all 
        buildings, with state-of-the-art lighting controls, expanding 
        AOC/Senate's centralized dimming system, integrating occupancy 
        and daylight sensors;
  --Upgrading of existing pneumatic and electric controls for heating, 
        ventilating, and air-conditioning (HVAC) systems with direct 
        digital controls (DDC) and providing an ongoing program to 
        train building automation system operators specifically in the 
        monitoring and diagnosis of energy-related controls 
        deficiencies;
  --HVAC Testing, Adjusting, and Balancing to trim excessive outdoor-
        air ventilation, provide for high-efficiency cog belts (for fan 
        drives), and add weather stripping to exterior doors to 
        minimize infiltration;
  --Replacement of existing transformers with high-efficiency 
        transformers; and
  --Installation of removable insulation covers for steam valves to 
        reduce heat loss, improve comfort, and reduce the safety risks 
        associated with the hot surfaces.
    After implementation of all energy conservation measures over the 
36-month construction period, the Senate Office Buildings are estimated 
to potentially realize: a 36 percent reduction in total energy 
consumption; and approximately $3.9 million in annual energy savings.
    We appreciate the support of the Senate Leadership, Chairman 
Schumer, and all of our Oversight Committees in our ongoing efforts to 
improve energy efficiency and reduce the carbon footprint of the 
Capitol complex. They have made clear their commitment to reduce energy 
consumption, conserve natural resources, protect the environment, and 
in the long term, save taxpayer dollars.
    Last year, the AOC also entered into an ESPC to implement energy 
savings projects in the House Office Buildings. The contract includes 
nearly $34 million in facility infrastructure upgrades in the Rayburn, 
Longworth, Cannon, and Ford House Office Buildings, as well as the 
House Page Dormitory.
    After implementation of all energy conservation measures over the 
30-month construction period, the House Office Buildings are estimated 
to potentially realize: a 23 percent reduction in total energy 
consumption; a 32 percent reduction in total water consumption; and 
approximately $3.3 million in annual energy savings.
    In our Energy Savings Performance Contract for the U.S. Capitol 
Building, nearly $17 million in facility infrastructure upgrades are 
planned for the Capitol Building. They include:
  --Upgrading existing light fixtures with high-efficiency lamps, 
        ballasts and reflectors as well as new replacement fixtures;
  --A comprehensive Building Automation System modernization, including 
        the upgrade of existing pneumatic and electric controls for 
        heating, ventilating and air-conditioning (HVAC) systems with 
        direct digital controls. These improvements will reduce energy 
        consumption and improve temperature and humidity control;
  --Replacement of the air-handling systems with variable air volume 
        (VAV) systems to reduce energy consumption while augmenting 
        capacity and improving temperature and humidity control;
  --Replacement of existing electrical transformers with high-
        efficiency transformers; and
  --A comprehensive audit and repair effort to restore steam trap 
        performance.
    After implementation of all energy conservation measures over the 
27-month construction period, the Capitol Building is estimated to 
realize: a 38 percent reduction in total energy consumption; and 
approximately $2.2 million in annual energy savings.
    In addition, we are continuing our efforts to complete the program 
to install steam, electricity, natural gas, chilled water, potable 
water, and condensate meters across the Capitol complex. This is a key 
effort in terms of being able to measure current consumption, look for 
improvement opportunities, and measure energy savings results. To date, 
approximately one-third of the meters have been installed. The 
remaining meters for facilities located outside the Capitol complex, as 
well as the rest of the Capitol complex, are included in our fiscal 
year 2011 budget request, with a final initial installation funding 
request projected for fiscal year 2012.
    Because the Capitol Power Plant (CPP) plays a critical role in our 
long-term energy conservation strategy, we are continually working to 
improve and upgrade operations there. The CPP has served the Capitol 
complex very well since 1910, but in order to continue to provide these 
services into the future, it is time to transform the CPP and its 
operations. We started this transformation last February when we began 
using natural gas as the primary fuel source. We are now studying and 
evaluating potential new technologies to implement at the CPP. We 
recently completed our Strategic Long-Term Energy Plan, which will help 
to determine our future Energy Program planning, and explore various 
options for continued energy efficiencies.
    Over the past several years we have been working to create a 
healthy and productive workplace where environmental awareness and 
sustainability are the normal ways of doing business in the Capitol 
complex. There are a number of initiatives that the AOC has been 
engaged in, and we continue to see results in our efforts to improve 
energy efficiency.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here are just a few of our ongoing sustainability initiatives and 
projects:
  --We recently renovated room G-50 in the Dirksen Building, to install 
        new LED light bulbs that use over 80 percent less electricity, 
        give off less heat, and have a life expectancy of 30 years. In 
        addition, the carpet and paint used in the room has low or no 
        volatile organic compounds (VOCs). We also use low-VOC and 
        other green cleaning products throughout the complex to ensure 
        we maintain excellent indoor air quality.
  --We installed nine solar panels in a Senate parking lot to power new 
        lights which make the parking lot safer.
  --We have installed daylight harvesting systems in Member and 
        Committee Offices that use electronic sensors to lower 
        artificial lighting levels when enough natural light is 
        available.
  --Nearly 35 percent of AOC employees use public transportation to get 
        to work.
  --We are updating our 2006 Alternative Fuel Policy so, in addition to 
        providing E-85 fuel to official government vehicles across the 
        Capitol complex, we require the purchase or leasing of 
        alternate fuel vehicles when replacing aging vehicles. To date, 
        there are 40 flexfuel, hybrid, and electric vehicles in the 
        AOC's fleet.
  --In September 2009, the American Lung Association of the District of 
        Columbia (ALADC) commended the AOC for its use of B20 blend 
        biodiesel fuel in its shuttle buses that service Capitol Hill. 
        The ALADC's Chief Executive Officer thanked the AOC for its 
        leadership in switching to biodiesel noting, ``The ALADC has 
        long called for greater use of biodiesel to improve the air 
        quality in our city, so it is particularly noteworthy that a 
        highly visible location like the Capitol uses biodiesel to 
        reduce emissions, including carbon monoxide, particulate matter 
        and unburned hydrocarbons.''
  --The AOC recycles 100 percent of its e-waste in three basic ways. 
        Computer equipment is donated by the Agency. If it's not 
        donated, it is reused or resold. Any equipment that is not 
        donated or reused is recycled by a commercial recycling 
        company. Typically the equipment is either reused or broken 
        down and its components are repurposed.
  --As part of Committee office renovations, the AOC has incorporated 
        sustainable design features. The AOC installed lighting control 
        systems where the electricity is metered, used rapidly 
        renewable materials and certified wood, and recycled more than 
        12 tons of construction waste in this Committee suite.
  --For construction projects, we regularly purchase materials 
        containing recycled content such as acoustical ceiling tiles, 
        resilient flooring, sheet rock, doors, low volatile organic 
        compound materials, and medium density fiberboard. Whenever 
        possible, construction materials are purchased locally.
  --We continue to install low-flow fixtures and automatic faucets in 
        restrooms, convert from pneumatic to direct digital controls to 
        maximize energy usage efficiency, and replace incandescent 
        light bulbs with Compact Fluorescent light bulbs throughout the 
        Capitol campus.

            U.S. BOTANIC GARDEN/SUSTAINABLE SITES INITIATIVE

    Because sustainable design, construction, and landscape management 
can have a significant and positive impact on our environment, in 
November 2009, the U.S. Botanic Garden launched the Sustainable Sites 
Initiative, in partnership with the Lady Bird Johnson Wildflower Center 
and the American Society of Landscape Architects.
    The goals of the Sustainable Sites Initiative encourage the 
sustainable design, construction, and maintenance of landscapes. These 
are the first national guidelines for building landscapes that will 
help to clean the air and water; mitigate temperatures; reduce 
flooding; provide more natural habitat for birds, insects, and animals, 
and help support our health and well-being.
    The effort to transform the way built landscapes are designed, 
constructed, and maintained for generations to come is a very important 
one, and the AOC is proud to be among those leading this national 
effort.

                    ANNUAL OPERATING BUDGET REQUEST

    Our fiscal year 2011 annual operating budget request for $443 
million provides funding for continuing the critical activities of 
operating and maintaining the infrastructure which supports the 
Congress, other Legislative Branch agencies, and the public, as well as 
other AOC essential mission support services. Some of these services 
include financial management, safety, human resources, project and 
construction management, planning and development, communications, 
information technology, procurement, and central administration.
    As I mentioned earlier, this non-discretionary spending has 
remained fairly constant over the past several years, and significant 
reductions in this portion of our budget would greatly impact our 
ability to provide day-to-day services and maintain our facilities at 
expected and acceptable levels.
    Other operating cost increases lie outside our control, including 
additional price increases that exceed inflation and are imposed by 
vendors as the cost of doing business. In addition, the cost of leases 
has increased, new technologies require investment in new networks, as 
well as hardware and software upgrades, and mandatory pay raises 
combined with the increase in costs for goods and services have added 
to the cost of our daily operations.

            CAPITOL VISITOR CENTER OPERATING BUDGET REQUEST

    At the opening ceremony for the Capitol Visitor Center (CVC) in 
December 2008, I noted that, ``Visitors now have a respectful and 
dignified way to come to the People's House, and I invite everyone to 
come and explore all that the Capitol Visitor Center and the U.S. 
Capitol have to offer.'' Little did I realize that 2.3 million people 
would take me up on my offer in just the first year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We are requesting $23.9 million for CVC operations and 
administration, and four FTEs to support operations including an 
interpretive curator.
    The CVC's first year of operation has been extremely successful. 
Average wait times continue to be 6 minutes versus the 3 or 4 hours in 
line in years past. More than 1,100 events have been held in the CVC's 
meeting spaces in the past year, and we're looking forward to large 
crowds again as Cherry Blossom season approaches.
    We continue to make improvements and adjustments to our policies 
and tour procedures including modifying the Advanced Reservation System 
to give Congressional offices more flexibility to modify, cancel, or 
reschedule tour reservations. We've also added a Congressional staff 
line at the South Information Desk, brought on more operators to ensure 
prompt responses to phone calls, and will be assigning staff to 
strategic locations in Emancipation Hall to help facilitate visitor 
traffic flow of staff- and guide-led tours.
    We continue to hold monthly listening sessions with Congressional 
staff to receive feedback and answer questions, and to date, more than 
5,100 staffers have participated in the CVC's training program.
    As a point of interest, I would like to note that in April we will 
install new documents into the CVC's Exhibition Hall. The new items, 
which include a map used by the National American Woman Suffrage 
Association showing their successful campaign for voting rights, the 
proclamation to residents of the Louisiana Territory that the United 
States had purchased the area from France, and the map showing the 
route of the Wilkes Expedition (the U.S. Exploring Expedition to the 
South Seas that brought to Washington a collection of living plants 
from around the globe) will be on display through early October.

                          AOC ACCOMPLISHMENTS

    Mr. Chairman, this past year we have recorded a number of 
significant achievements. The following is a list of just a few of our 
many accomplishments.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  --Our annual Building Services Customer Satisfaction Surveys for 
        fiscal year 2009 again showed that a large majority of our 
        customers are satisfied or very satisfied with the level of 
        service the AOC is providing them.
  --We continued to improve our cost accounting procedures and internal 
        controls, and received our fifth consecutive clean audit 
        opinion from independent auditors on all of our financial 
        statements. The Capitol Visitor Center construction project 
        received a clean audit opinion; the third in 3 years. We 
        submitted the first set of semi-annual financial statements for 
        CVC operations in 2009, and received a clean audit opinion on 
        those as well.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --We made tremendous progress to close out the recommendations from 
        the Government Accountability Office's (GAO's) General 
        Management Review (GMR) of the Agency. Ninety-one percent of 
        the recommendations are now closed (61 out of 67). Three of the 
        items from the original GMR are pending closure, and expected 
        to be completed in summer 2010. The remaining open items focus 
        on long-term recommendations (not part of the original GMR). We 
        are closely monitoring those activities and reporting status to 
        GAO.
  --We activated our pandemic flu plan in response to the H1N1 Flu 
        threat, including implementing action plans to address 
        continuity of operations; educating staff on how to prevent 
        getting sick; providing hand sanitizing stations across the 
        Capitol complex, and doing regular cleaning with a focus on 
        cleaning hard surfaces, such as desks and tables.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Worker safety remains one of our top priorities and our focus 
        remains on decreasing our Injury and Illness Rate each year, as 
        we have done since 2000. Safety training and education are keys 
        to our success, with a particular emphasis on injury prevention 
        through hazard recognition and elimination.
  --We will complete the initial phase of our preventative maintenance 
        standardization program this month. Included in this effort is 
        the identification of common preventative maintenance issues 
        across jurisdictions, minimum corrective procedures to follow, 
        and timelines for completion. This information will be 
        automated in our facilities management information system and 
        allow us to track metrics in the future to identify 
        opportunities for improvement.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Since 2007, the Office of Compliance (OOC) has issued one citation 
        to the AOC. AOC has worked collaboratively with the Office of 
        Compliance to close older citations and has successfully closed 
        21 citations since 2007. Eighteen Citations remain open today; 
        four are scheduled for closure in 2010. The remaining address 
        longer term utility tunnel (6) and fire and life-safety (8) 
        matters.
  --During the 111th Congress, the AOC increased its emphasis on 
        facility safety inspection, to include pre-inspections of 
        Members' offices prior to the OOC's biennial inspections. As a 
        result of the combined efforts of AOC and other employing 
        offices, the OOC is reporting a decrease of 41 percent in the 
        number of findings from fiscal year 2010 in the nine facilities 
        in which the OOC has completed inspections to date.
  --The U.S. Botanic Garden (USBG) was recognized as one of 
        Washington's best tourist spots in August 2009, by Nickelodeon 
        Television. The USBG won its ``Parents' Picks Award,'' 
        garnering more votes than several other area attractions. In 
        December, the USBG was voted one of the nation's best spots to 
        ``catch the holiday spirit'' by the American Automobile 
        Association (AAA).
  --The AOC team that managed construction of Modules 3 and 4 and four 
        Cold Storage Rooms at the Library of Congress Fort Meade High-
        Density Storage Facility were honored with a national award in 
        October from the Construction Management Association of America 
        (CMAA), in the category of new construction for a project under 
        $50 million. The new storage units will house 33 million items 
        from the Library's special-format collections.
  --Later this month the AOC will be recognized by the Washington 
        Building Congress with two awards that recognized special 
        building skills. The House Office Buildings Sprinkler 
        Installation Project will receive one award under the category 
        of ``Decorative Plaster'' and the second under ``Plumbing,'' 
        which has also been nominated for a Star Award. The awards will 
        be presented on March 26, 2010.

                               CONCLUSION

    Mr. Chairman, as ``Snowmageddon'' has shown, the AOC is ready to 
step up and do what is necessary to keep the Capitol complex open and 
operating every day of the year--under any circumstances.
    Today, we face a blizzard of deferred maintenance projects, and the 
forecast is not sunny. We do appreciate the investment Congress has 
made in our facilities over the past several years as we work to buy 
down the deferred maintenance backlog. The AOC has been successful in 
our work to be good stewards of the Capitol complex due to your 
support.
    We also have been able to accomplish much and experience numerous 
successes because of the dedicated, professional men and women who make 
up the AOC team. I have been honored and privileged to work along side 
them. Because of their efforts and commitment to excellence, we 
continue to provide exceptional service to Congress, and have been able 
prevent system and facility failure due to their skills and ingenuity.
    Once again, thank you for this opportunity to testify today. Mr. 
Chairman, we look forward to working with this Subcommittee, the House 
Subcommittee on Legislative Branch, and our Oversight Committees to 
address the backlog of maintenance and repair projects, and continue to 
protect and preserve the U.S. Capitol for generations to come.
    I would be happy to answer any questions you might have.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ESQ., EXECUTIVE 
            DIRECTOR
    Senator Nelson. Ms. Chrisler.
    Ms. Chrisler. Thank you. Good afternoon, Mr. Chairman, Ms. 
Murkowski.
    I am honored to be here to appear before you today 
representing the Office of Compliance in support of our 2011 
fiscal year budget request.

 <greek-l>OOC deg.CONGRESSIONAL ACCOUNTABILITY ACT 15 YEAR ANNIVERSARY

    I would like to take a moment, though, before I go into the 
highlights of that request and note that the Congressional 
Accountability Act (CAA) celebrates its 15th anniversary this 
year, and it is not just a celebration for the Office of 
Compliance, but it is a celebration for the entire 
congressional community. The successes that are achieved under 
this Congressional Accountability Act are, in large part, due 
to the work of the member offices and the agencies and 
particularly this subcommittee. So we thank you for your 
support in the area of the work of our agency.

                   <greek-l>OOC deg.SAFETY AWARENESS

    Because of this subcommittee, the agency has been able to 
raise awareness of safety and health on the Hill, resulting in 
an increase of four times the Safe Office Awards in the 110th 
Congress. And congratulations to you, Mr. Chairman, and you, 
Ms. Murkowski, for being recipients of that award this 
Congress. We appreciate your leadership in this area.
    In addition, this subcommittee's active involvement in fire 
safety issues has led the Office of Compliance and the Office 
of the Architect of the Capitol to engage in collaborative 
discussions regarding the prioritization of open fire safety 
citations. These discussions have resulted in a prioritization 
schedule that is cost-efficient, practical, and mindful of the 
iconic nature of our environment.
    I highlight these areas not just to show the progress that 
has been made under the CAA, but to thank you for your support 
and to emphasize that the OOC will be carrying out these and 
other programs without asking for additional resources, except 
where absolutely necessary.

            <greek-l>OOC deg.FISCAL YEAR 2011 BUDGET REQUEST

    There are three areas where the OOC has requested 
additional funding for fiscal year 2011, one being safety and 
health to develop a risk assessment approach to inspections; 
two being IT infrastructure to update and enhance our IT 
security; and three, human capital to provide mandatory salary 
increases and minimal merit increases.
    The technical guidance we provide in the area of safety and 
health is well received and results in cost savings. We want to 
continue this type of service and increase cost savings within 
the legislative branch, and from the language in the fiscal 
year 2010 legislative branch appropriations conference 
committee report, you want us to continue that service too. In 
line with the conference committee's report, we anticipate 
developing a cooperative and cost-efficient approach to the 
identification and correction of safety and health hazards. 
This approach will be risk-based and, as the conference 
committee report indicated, focused on those areas which would 
yield the most reduction of risk to human health and safety. As 
we see it, those areas are work places and work activities that 
pose the biggest risk to safety. We will work very closely with 
employing offices as we develop this approach.

              <greek-l>OOC deg.COMMUNICATIONS--IT SYSTEMS

    As my written statement indicates, our communications and 
IT systems are antiquated and do not provide a cost effective 
way of securing information. Our current system of two 
computers per employee is an administrative burden on our 
resources. It is not cost efficient and it is cumbersome for 
staff. The funding we seek will allow us to migrate the two 
networks into a single system while maintaining security of 
confidential information.
    The balance of our request is for mandatory cost-of-living 
increases, minimal staff increases, and associate benefits.
    We understand the fiscal constraints of our environment, 
and in the spirit of cooperation, we have presented a budget 
request which we believe only has minimal increases, only those 
necessary to allow us to continue to serve you, to focus 
attention on those hazards that are the riskiest, to protect 
confidential and sensitive information, and to retain the 
talented workforce that carries out the mandates of the CAA.

           <greek-l>OOC deg.ADDITIONAL RESOURCE AVAILABILITY

    Though we have a need for additional resources to assist 
with our inspections of over 17 million square feet of space in 
the D.C. Metro area alone, with an additional 1 million 
expected in fiscal year 2012 and 2013, we are not seeking those 
additional resources this year. Instead, we are working with 
OSHA to secure nonreimbursable detailees to fill the need. We 
are hopeful that a mutual exchange of services between the two 
agencies will be of benefit to both agencies at no cost to the 
Government.

                           PREPARED STATEMENT

    So on behalf of the Board of Directors and the entire staff 
of the Office of Compliance, I thank you for your support of 
the agency, and I am happy to answers any questions that you 
have.
    Senator Nelson. Thank you.
    [The statement follows:]

                Prepared Statement of Tamara E. Chrisler

    Mr. Chairman, Ms. Murkowski, and distinguished Members of the 
Subcommittee, I am honored to appear before you today on behalf of the 
Office of Compliance (``OOC'' or ``Agency''). Joining me today are 
General Counsel Peter Ames Eveleth, Deputy Executive Director Barbara 
J. Sapin, Deputy Executive Director John P. Isa, Deputy General Counsel 
Susan M. Green, and Budget and Finance Officer Allan Holland. 
Collectively, we present to you the Agency's request for appropriations 
for fiscal year 2011, and we seek your support for our request.
    For fiscal year 2011, the Agency is requesting a total of 
$4,675,491, a $298,491 or 6.82 percent increase over the Agency's 
fiscal year 2010 appropriations level of $4,377,000. This funding would 
provide the Agency with the bare minimum resources necessary to 
continue its operations. This minimal increase includes funding for the 
development and roll out of a risk-based assessment, essential 
improvements to our quickly aging and increasingly inefficient IT 
infrastructure, and salary increases required by Federal law.
    Before I go into the details of our request, however, I would be 
remiss if I did not acknowledge the Subcommittee's continued support 
for this Agency. As you may be aware, the Congressional Accountability 
Act is celebrating its 15th anniversary this year. As we embark upon 
celebrating the successes Congress has achieved under this law, we must 
recognize the important role this Subcommittee has played: its vision 
and its support for this Agency and the work that we do. Because of 
this Subcommittee's steadfast assistance, the Office of Compliance has 
been able to continue to raise awareness of safety and health within 
our covered community. Just 2 weeks ago, the OOC presented four times 
as many Safe Office Awards as in the 110th Congress. These 154 
Representatives and Senators ensured that their employees could work in 
and that constituents could visit Washington, DC offices that are free 
from hazards. These increased numbers are a result of the daily 
education efforts of our staff, along with cooperation from staff of 
the Office of the Architect of the Capitol, House and Senate Employment 
Counsel, and the Chief Administrative Officer. Without the recognition 
from this Subcommittee of the importance of the OOC's safety and health 
services, and without substantial funding to provide these services, we 
would not be celebrating these safe and healthy Congressional 
workplaces.
    Because of this Subcommittee's dedication to safety issues, a Blue 
Ribbon Panel of architects and fire safety experts has been convened to 
provide an independent assessment of fire safety issues in the Russell 
Senate Office Building. This assessment will be instrumental in 
ensuring that fire safety hazards are abated in an effective and cost-
efficient manner, while maintaining the beauty and history of the Halls 
of Congress. Indeed, this Subcommittee's active involvement in fire 
safety issues has lead the OOC and the Office of the Architect of the 
Capitol to engage in collaborative discussions regarding the 
prioritization of open fire safety citations. These discussions have 
resulted in a prioritization schedule that is cost-efficient, 
practical, and mindful of the iconic nature of our environment.
    This Subcommittee's interest in the work performed by the OOC does 
not end with its help in the area of safety and health. Because of this 
Subcommittee's support, the Office of Compliance has increased its 
educational workshops provided to sister agencies about our unique 
dispute resolution system. Our colleagues have taken an interest in our 
services because we implement and administer a dispute resolution 
system that focuses on resolving disputes at the front end of a case 
using mandatory counseling and mediation. This approach results in 
lower costs for all parties and less workplace conflict.
    We are providing training for new Congressional employees, and up-
to-date publications for Members, employing offices, and Congressional 
employees about their workplace rights and obligations under the CAA. 
Training and knowledge of the law are a central part of our job on 
Capitol Hill. We are proud of the work we do for you, and we take pride 
in the fact that we do it nimbly and efficiently.
    In addition, the OOC has been working with the Office of the 
Architect of the Capitol to implement a cost-effective approach to 
improving public access to Capitol Hill facilities for persons with 
disabilities. The goal is, in cooperation with the Architect of the 
Capitol's Office, as well as other employing offices, to focus 
resources on removing the barriers that will most improve access to the 
facilities for the lowest cost.
    I highlight these programs to showcase the work that has been done 
and the progress that has been made in our legislative community 
because of this Subcommittee: your interest in our mission, and your 
support for our mission. We thank you. I also emphasize that we will be 
carrying out these programs in fiscal year 2011 without asking for 
additional resources except where it is absolutely essential.

                           STRATEGIC PLANNING

    As the Office of Compliance celebrates these and many other 
accomplishments, we look forward to the next fiscal year, ready with a 
new 3 year Strategic Plan. Although the Plan covers fiscal years 2010 
through 2012, fiscal year 2011 will be the first fiscal year in which 
the Agency has requested funding in support of this Plan. The Strategic 
Plan focuses the efforts of the OOC on providing technical guidance to 
agencies and employing offices, serving as a resource to the covered 
community, expanding our outreach efforts to raise awareness of our 
services, and strengthening our infrastructure to improve the quality 
of service we provide to our constituents.
    Our fiscal year 2011 request for appropriations supports the 
initiatives in our new strategic plan. Specifically, our budget request 
focuses on three major areas that are designed to support needed 
technical assistance to employing offices, as well as upgraded 
infrastructure for the Agency, and mandatory salary increases for 
staff.

                     SAFETY AND HEALTH INSPECTIONS

    In line with the goals and initiatives in our Strategic Plan, the 
OOC requests funding to continue its cooperative and cost-efficient 
approach to the identification and correction of safety and health 
hazards. If funded as requested, our 2011 budget would support the 
ongoing development and implementation of the risk-based inspection and 
abatement approach that the Conference Committee on fiscal year 202010 
Legislative Branch Appropriations directed OOC to institute.
    The OOC is completing its third successive wall-to-wall OSH 
inspection of legislative branch facilities on Capitol Hill. The area 
we inspect is vast: over 17 million square feet of property in the 
National Capital Area, including locations in Maryland and Virginia. As 
the covered community grows, so does the area we inspect. We do these 
inspections with a small staff of inspectors whose role is critical. 
You provided us with funds to hire them because you recognized that by 
finding hazards and alerting employing offices about them, employing 
offices can abate these hazards one-by-one. The abatement trends are 
overwhelmingly positive and exemplify swift progress. The OOC has found 
that the number of hazards has dropped substantially during the most 
recent three Congresses: from 13,000 in the 109th Congress, to 9,000 in 
the 110th Congress, to an estimated 6,000 in the present Congress.
    As you have recognized, there is still much to accomplish. At our 
last budget hearing, you challenged us, not just to point out hazards 
that need to be abated, but to target the most significant risks. In 
response to your directive, the Agency is developing an approach to 
target the riskiest workplaces and work activities in the 112th 
Congress. As we develop our risk assessment program, the OOC will be 
working very closely with the Office of the Architect of the Capitol's 
staff, as well as with other employing offices, to establish 
appropriate parameters. The OOC will work with employing offices to 
identify jobs and job sites that are inherently more dangerous: these 
may include, for example, the Capitol Power Plant and construction 
worksites. Our goal is to concentrate our limited resources where the 
risks are highest, to improve our ability to provide technical 
assistance focused on reducing on-the-job injuries and illnesses, and 
to remedy violations that pose serious threats to workers' safety.
    In light of the need to limit our appropriations request as much as 
possible, OOC has not requested funding for an additional safety and 
health inspector contractor, which we believe is needed. The 
authorization and funding provided in fiscal year 2010 for an OSH 
Program Manager to replace the retiring detailee equips the OOC with 
necessary resources to continue supervising our safety and health 
inspectors, working with outside OSH experts, and providing expert 
technical advice to the General Counsel and guidance to OGC staff 
regarding the application of OSHA standards. However, this position 
alone will not provide the resources needed to fully handle 
approximately one million additional square feet of Legislative Branch 
work space that is expected in fiscal year 2011 and 2012. Ever-mindful 
of the financial constraints facing our Government, and with an eye 
toward being cost-conscious, the OOC is asking the Occupational Safety 
and Health Administration to provide one or more safety and health 
inspectors on a short-term, non-reimbursable basis, to provide 
temporary inspection services at no additional expense to this Agency, 
while simultaneously providing on-the-ground experience for OSHA 
personnel.

                           OOC INFRASTRUCTURE

    The Office of Compliance's other focus during fiscal year 2011 is 
funding for OOC infrastructure. Communication and IT systems 
replacement/upgrades are at a crucial stage for agency efficiency and 
progress. Our IT systems impact all the programs discussed above, from 
dispute resolution, to education and outreach, to the protection of 
confidential information handled by our Agency. To ensure such 
confidential information is protected, the Agency maintains a dual 
computer network: an internal system which secures confidential 
information, and an external system through a server administered and 
maintained by the Library of Congress. The practice of maintaining two 
computers for each employee significantly decreases efficiency and 
increases costs and administrative burden on the Agency. In an effort 
to work more productively and reduce administrative costs, we seek 
funding to migrate the two networks into a single system.
    The balance of the increase that is being requested is for 
mandatory cost of living increases, minimal staff salary increases, and 
the associated benefits which allow the Office of Compliance to retain 
extremely high caliber employees to implement the programs described 
herein pursuant to the Congressional Accountability Act.

                               CONCLUSION

    The Agency approaches fiscal year 2011 with heightened fiscal 
responsibility and an understanding that only minimal funding essential 
to meeting our mission may be available. We have examined our programs 
in conjunction with our statutory mandates, and we have made 
significant efforts to streamline our appropriations request to reflect 
the country's and the Government's current economic difficulties. With 
that understanding, we present to the Subcommittee only those items 
necessary to meet our statutory mandates. The three items discussed 
herein--risk-based inspections' approach, IT improvements, and 
mandatory salary increases--are the three major items that comprise our 
minimal increase of $298,491. Funding for these items will allow the 
Agency to continue to provide needed services and technical assistance 
to the covered community.
    On behalf of the Board of Directors and the entire staff of the 
Office of Compliance, I thank you for your support of this Agency. I 
would be pleased to answer any questions.

            <greek-l>AOC deg.FISCAL YEAR 2011 BUDGET IMPACT

    Senator Nelson. Mr. Ayers, the subcommittee recently asked 
you to look at the impact of holding your agency to fiscal year 
2010 funding levels for fiscal year 2011. I know and appreciate 
the effort you have already put forward on this task, and I 
would like to ask you just a few questions about your efforts 
to do that.
    The first one, perhaps the most obvious one, is what would 
be the impact of zero growth on your budget in fiscal year 
2011.
    Mr. Ayers. Thank you, Mr. Chairman. As we approached that 
analysis to keep our 2011 budget at the 2010 levels, it 
required us to make a reduction of $154 million. So we took a 
three-pronged approach.
    The first part of that was to look at our existing budget 
to see if there was any money we could drive out of that 
existing portion of our budget, and we were able to drive $15 
million out of that budget, which is equivalent to taking 11 
projects off of the list of 46 projects that we have put forth.
    The second thing we did was to look at the operations 
portion of our 2011 request and see what made sense to reduce 
there, and we were able to drive another $14.5 million out of 
that portion of our request.
    And of course, the most volatile portion of our request is 
the projects budget that goes up and down every year depending 
upon what projects are there, and the remainder of the required 
reduction came out of the projects request.
    So the net result of being held to those levels is a couple 
of things. One, certainly with the rise in construction costs, 
ultimately the projects that are on our list will need to be 
done. They will simply cost a little more later.
    Second, keeping at a zero percent growth is actually a 
decrease because we have to pay mandatory price increases and 
mandatory payroll increases instead of furloughing people, and 
that would certainly be our objective to not furlough people.
    There are a handful of projects that we think are in our 
operations side that are not going to get done. There are a 
series of full-time equivalents (FTEs) that we will defer to 
next year or the year after. Refreshing our information 
technology resources will not get done in 2011. Replacement of 
security barriers on a regular interval will just be pushed out 
in another year or two. So I think those are some of the 
impacts that we could expect.
    Senator Nelson. In that regard, what method did you use to 
try to establish priorities there? Because obviously you are 
prioritizing. Did you have any particular methodology you used?
    Mr. Ayers. Mr. Chairman, the project prioritization process 
that we have been working on for nearly 5 years has matured 
year after year. It has really developed into an excellent tool 
for the Congress to use to make important decisions on our 
budget. So every one of those 46 projects that is on our list 
goes through a rigorous prioritization process. In the budget 
that we have put forth, they are in priority order. So 
theoretically, if you needed to reach a certain reduction, you 
could simply start at the bottom of that list and cut those 
projects as you work your way up.

               <greek-l>AOC deg.PROJECT PRIORITY RANKING

    That process includes a number of factors. We look at 
mission, economics, energy, security, historic preservation, 
life safety. Every project gets a numeric score in each of 
those six categories. We also look at how urgent a project is, 
and every one of those 46 is measured against immediate, high, 
medium, or low urgency. And last, with the theory of you need 
to take care of what you have before you build new, every 
project receives a classification of either deferred 
maintenance, capital renewal, capital improvement, or capital 
construction. In our prioritization process a deferred 
maintenance project, which is something that is already broken 
and needs to be fixed, will move to the top of the list over 
new construction.

                  <greek-l>AOC deg.PRIOR YEAR BALANCES

    Senator Nelson. In trying to establish the budget now in 
terms of the zero growth, do you take into account what are 
generally referred to as prior year balances? For example, I 
believe there is somewhere in the neighborhood of $50 million 
that was appropriated in fiscal year 2010 for the House 
Historic Buildings Trust Fund. Do you take that into account as 
well?
    Mr. Ayers. We certainly did take that into account, and we 
did a comprehensive review of our prior year funds. We did 
drive $15 million out of what we thought was in excess to our 
needs. We were able to apply that to 11 projects that were on 
the list.
    We do think that keeping the House Historic Buildings 
Revitalization Fund at $50 million is a good thing for our 
budget. We have been working very hard with Congress for the 
last 3 years to make some seminal changes in our budget 
profile. We now have the tools available to look out 20 years. 
The future does not look good. So we have really been working 
to make a seminal change, and I think that change enables us 
not to cut off our nose to spite our face. So we make that 
investment later on.
    Senator Nelson. But as you do that, how do you choose then 
to defer immediate-need projects involving roof replacement and 
fire protection? How would that historic trust fund come ahead 
of what seem to be more basic needs?
    Mr. Ayers. It is making a down payment for the future. So 
we know, coming up in a few years, that we have over $100 
million in deferred maintenance in the Cannon House Office 
Building, which is the next building that we believe needs a 
top-to-bottom renovation. So we believe that we need to begin 
making that investment in 2016 or 2017. So without that money 
and building up a corpus of money, we are not going to be able 
to do that come 2016 or 2017. We are going to have to take that 
money out of the bandwidth that is available in this budget. 
That will prevent us from doing the projects on the list that 
given year. So we do think that the balance of projects we need 
to do now, as well as making investments for the future, is the 
right balance.
    Senator Nelson. Well, I think part of the challenge we have 
is the future needs and setting aside money, but I think the 
American taxpayer will have a challenge understanding socking 
away money for future needs if we cannot make ends meet on the 
immediate needs that we face right now, such as roof repairs 
and other deferred maintenance that may raise life and fire 
safety issues. So I raise that as a question for your 
consideration.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I will follow 
on here as it relates to the projects because I think it is 
such an important part of what we are dealing with here in 
terms of priorities and how we allocate the dollars that are 
available.

             <greek-l>AOC deg.SUBSTANTIAL PROJECT INCREASE

    As I flipped through the various areas within the 
jurisdiction of the Architect of the Capitol, looking at the 
requests for general administration, you are looking for 
funding for three projects. That is an increase of 38.9 percent 
for those. Within the Capitol Building section, we have got 
nine different projects. This is an increase of 703 percent. In 
the category of Senate office buildings, you have got a number 
of projects, including what the chairman has mentioned, roof 
repairs, et cetera, waterproofing. But this is a 165 percent 
increase. In other categories under Library buildings and 
grounds, we have got 11 projects, a 279.7 percent increase in 
the projects. With the Capitol Police buildings, grounds, and 
security, we are looking at additional funding for six 
projects, 106 percent increase. The Botanic Garden--there are 
only three projects that are requested there. Still, that is an 
87.8 percent increase.
    I guess the question that I would have is, with these 
projects and a pretty substantial increase in terms of 
requested projects that now get on the to-do list, are these 
projects driven by citations that are coming out of the Office 
of Compliance or do they get on the list because they are 
deferred maintenance projects that the AOC is trying to work 
through? How do we get to this number of projects that are on 
the list?
    Mr. Ayers. Certainly primarily projects come from 
independent assessments of all of the facilities on Capitol 
Hill. So for the past several years, we have engaged an 
independent company that specializes in this kind of thing to 
review every piece of equipment, every building system, and 
give us an honest, third party, independent assessment of its 
condition and its useful and expected life, and to help us 
classify whether it is broken, needs to be fixed, deferred 
maintenance, or whether we really need to add onto a system or 
capital improvement. This is developed into a significant 
database that maps out what needs to be done in all of our 
buildings across Capitol Hill for the next 20 years. That comes 
into developing what projects are on the list.

            <greek-l>AOC deg.WHAT DRIVES THE BUDGET REQUEST

    Also, our 20-year Capitol complex master plan has projects 
in it that drive what is in our budget request.
    But certainly a small number of those--there are three of 
them this year. In fact, the top three are driven by citations 
from the Office of Compliance. So that will ebb and flow in any 
given year.
    Senator Murkowski. Are there only three that are driven by 
the Office of Compliance?
    Mr. Ayers. There are only three in fiscal year 2011 that 
are driven by the Office of Compliance.
    Senator Murkowski. And which are those projects?
    Mr. Ayers. The first is the utility tunnels and the second 
one is compartment barriers and horizontal exits in the Capitol 
Building. The third is a new exit stair in the Thomas Jefferson 
Building for the Library of Congress.

              <greek-l>AOC deg.PROJECT LIST--SAFETY ISSUES

    Senator Murkowski. Well, I guess I want to understand more 
about the prioritization because I am engaged in overhaul of an 
old home myself, and believe me, my to-do list looks a heck of 
a lot different than my husband's to-do list who is doing all 
the work. Then when we go and we consult the checkbook and how 
we are going to pay for it, all of a sudden, the to-do list 
looks entirely different, and we are constantly resorting and 
reprioritizing.
    So I guess I am a little concerned that knowing that the 
chairman and I have been very specific in asking the agencies, 
the departments to give us your lean and mean budget, that we 
would be looking at a whole list of projects that while they 
will be important to do at some point in time or they are 
things that we want, that we really have not figured out how we 
can present a very clean and doable list of projects that we 
must address because of safety issues.
    So to know that of the many different projects in these 
various categories, we have got three that we have got Office 
of Compliance issues with or some form of citation that is out 
there, and that others that are on somebody's matrix of 
something that we want to have on the schedule, it does not 
give me a very clear picture of what we really think the 
priorities should be. I would hope that we will all be working 
together to perhaps give some more certainty as to where we are 
really going to go with projects for this year.

       <greek-l>AOC deg.BLUE RIBBON PANEL--FIRE CODE REQUIREMENTS

    I know that there are some things that we can start, and it 
does not foul the process if we do not have the full funding to 
complete it, but I know that there are other things that you 
need to be able to complete once you initiate those projects. 
We need to know and understand which fall into those categories 
as well.
    Senator Nelson. We talked about the Russell Building stairs 
and I think we were seeking a blue ribbon panel to review how 
the fire code requirements apply to historic buildings. Do we 
have the panel's findings with regard to the stairs in the 
Russell Senate Office Building? Has that blue ribbon panel 
study been completed?
    Mr. Ayers. No, Mr. Chairman, it is not complete yet, but we 
do expect it to be complete in April.
    Senator Nelson. Do you expect it to be helpful in assisting 
you in prioritizing the fire and life safety challenges that 
you face?
    Mr. Ayers. Absolutely. I think we have brought together a 
really stellar blue ribbon panel, the best minds that we know 
of in the country, to help us address this issue. We are 
looking forward to their thoughts and suggestions and 
recommendations.

                 <greek-l>AOC deg.PRELIMINARY FINDINGS

    Senator Nelson. Have you had any preliminary feedback from 
this panel?
    Mr. Ayers. Yes, we have. They did come and present to us a 
50 percent completion document, and the entire team got 
together. They made a great presentation for us, and all of us 
felt that they were on the right track. We were very encouraged 
with the level of effort, the level of detail and the level of 
professionalism and engineering judgment that they are bringing 
to the table. So we are really looking forward to the report in 
April.
    Senator Nelson. Have you included Ms. Chrisler in the 
development of the study and the preliminary findings? Ms. 
Chrisler.
    Ms. Chrisler. Yes. Actually the Office of Compliance was 
provided a copy of the report. We also attended the briefing, 
the 50 percent briefing. We were able to attend. We were happy 
to attend, and we also gave some comments based on the analyses 
that were conducted within the 50 percent report.
    Senator Nelson. Did you find it helpful to be able to work 
together in that sort of an environment with that kind of a 
project?
    Ms. Chrisler. Extremely helpful. As Mr. Ayers indicates, 
the expertise that sits on the panel will absolutely be 
instrumental to the addressing of these issues, and we 
appreciate the opportunity to sit down and consult with them, 
along with the Office of the Architect of the Capitol.
    Senator Nelson. You did not find it necessary to be 
adversarial in that environment, I am sure.
    Ms. Chrisler. Absolutely not. It is an independent 
assessment, and we appreciate the experts' opinion and we 
appreciate the time that they have taken, their perspective 
that they are bringing to the assessment of the issues, and it 
is very collaborative.
    Senator Nelson. Good, thank you.

                    <greek-l>AOC deg.UTILITY TUNNELS

    In terms of the utility tunnel repairs, Mr. Ayers, the 
request includes $14 million for the utility tunnel project and 
$20 million in other citation-related projects. I am glad to 
hear that things are pretty much on schedule to complete the 
repairs in 2012. When the repairs are completed, do you 
anticipate being in full compliance with the applicable health 
and safety standards, as we might hope that you would be?
    Mr. Ayers. Yes, we do, Mr. Chairman.
    Senator Nelson. Maybe since some of the repairs were 
considered to be an interim fix, how long do you expect those 
interim repairs to last? Are they very short term or are they 
intermediate term?
    Mr. Ayers. Our objective is to get another 20 years out of 
the utility tunnels. It is more of a longer-term approach we 
are taking.

                   <greek-l>AOC deg.REVIEW OF REPAIRS

    Senator Nelson. Ms. Chrisler, have you had an opportunity 
to review the repairs or some explanation of the repairs?
    Ms. Chrisler. We have consistent monitoring of the progress 
that is being made within the utility tunnels. We have a 
dedicated staff member who liaisons with the Architect's Office 
and is kept up-to-date and reviews the information and has 
weekly meetings and provides feedback. It is a very engaged 
effort on both agencies' parts. So yes, we are very, very much 
aware of the progress that is being made and the progress is 
very good, right on schedule.
    Senator Nelson. And then in terms of the other citations, 
are there other citation-related projects included in the 
fiscal year 2011 request?
    Mr. Ayers. We have three citation projects that are in our 
2011 request. The first, of course, is the utility tunnels, our 
most important work. The second is compartment barriers and 
horizontal exits in the Capitol Building, and the third is a 
new stair in the Jefferson Building. It is important to note 
that those three have risen to the top of our priority list, 
but it is also important to note that those three are in 
priority order. As you know, we worked together this summer to 
develop a prioritization process where we can now prioritize 
these citations. So what you see before you in our prioritized 
list is in priority order.

              <greek-l>OOC deg.PRIORITIZATION OF CITATIONS

    Senator Nelson. Ms. Chrisler, are you comfortable with the 
effort that has been made and the results of that 
prioritization effort?
    Ms. Chrisler. We, being the Office of Compliance and the 
Office of the Architect of the Capitol, sat down pursuant to 
the direction given by this subcommittee and engaged in some 
very productive discussions regarding the prioritization of the 
fire safety citations. And during those discussions, we 
collaborated and agreed upon an applicable standard, and based 
on that application of the standard, together reached this 
prioritization that we have before us. So, yes, we are very 
much in agreement and we think that it is right on point.
    Senator Nelson. Well, I appreciate the collaboration and 
the spirit of cooperation there because it seemed to me a year 
ago that the Office of Compliance was more in the realm of a 
referee or an umpire throwing a flag here and throwing a flag 
there on a violation. And it is encouraging to see that there 
is more cooperation and collaboration on these projects so that 
the adversarial relationship is not necessarily helpful if you 
can go forward and work together.
    Ms. Chrisler. That is correct. And we see ourselves as a 
service agency and as a resource, and we cannot be the only 
ones that see ourselves that way. It is important for others to 
see us that way as well, and we understand that that 
perspective will only come from the work that we are doing and 
not just the dialogue that we are engaged in. So we are very 
much appreciative of the opportunity to be able to sit down and 
not just act as referee but to offer technical advice and 
technical assistance where necessary.
    Senator Nelson. Great, thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

<greek-l>AOC deg.FEDERAL ACQUISITION STREAMLINING ACT AUTHORITY--LEASE 
                               AUTHORITY

    Mr. Ayers, let me ask you some questions about the two 
legislative language proposals that are contained within the 
budget request. The first is the Federal Acquisition 
Streamlining Act authority, the FASA authority, and long-term 
lease authority. And I understand that it would provide for 
procedures for commercial item acquisition, presumably to 
result in efficiencies and savings whether it is janitorial 
services or whatever.
    I am trying to understand exactly what the budgetary impact 
of something like these proposals would actually be and whether 
or not there will be cost savings if, in fact, these 
authorities are to be granted; whether there are savings in 
operations and contracts immediately or whether we are going to 
see this play out over time. Can you just kind of give me a 
better picture so I can understand what it is that you are 
anticipating with this authority?

                  <greek-l>AOC deg.FASA BUDGET IMPACT

    Mr. Ayers. Absolutely, Senator Murkowski. The Federal 
Acquisition Streamlining Act is an act that was enacted about 
10 years ago and it is widely used throughout the executive 
branch. We are looking to have that kind of procurement 
flexibility with the Architect's Office. And you are absolutely 
right. The purpose of this is to save money, save time, and 
create efficiencies in our procurement office.
    So what it does, is allows us to purchase commercial items 
up to $5.5 million using simplified acquisition procedures. 
Today we are only capable of using those simplified acquisition 
procedures for procurements up to $100,000. Those procedures 
are simply a purchase order, and maybe three or four or five 
pages tops of procurement and contract language to procure a 
commercial item today $100,000 and below. Today, above 
$100,000, we have to go through a contract procedure which is 
easily 100 pages of contract clauses to procure a commercial 
item up to $5 million. This would really significantly save 
time in our procurement office, allowing us to buy commercial 
things in a very simplified manner. It saves us money and 
prevents, I think the budget impact you were trying to get at. 
It prevents us from, in the future, having to come to you and 
ask for increases and increases in our procurement staff. We 
are gaining some efficiencies there and will not need to do 
that in the future.
    Senator Murkowski. So do you actually spend over $100,000 a 
year moving statues?
    Mr. Ayers. That is just one particular item.
    Senator Murkowski. I am just looking at it. I am thinking, 
okay, bulk fuel, yes; light fixtures, yes. And I was looking at 
the cleaning of the chandeliers----
    Mr. Ayers. Like toilet paper, paper, all of those types of 
things.
    Senator Murkowski [continuing]. And I decided those 
chandeliers have got to be really expensive to clean.
    But you do anticipate--I am assuming you have done some 
kind of a cost analysis that has said that consolidating these 
procurement policies is going to be beneficial in the short 
term and the long term.
    Mr. Ayers. Absolutely. We did go back to all of our 
procurements in 2008 and analyzed every one of them to 
determine how many of them we could have taken from this 100-
page contract phase and used the simplified acquisition 
procedures. There were 35 of them, and for those 35, we believe 
we could carve out 20 man-days on each one. So it is a very 
significant savings.

               <greek-l>AOC deg.SENIOR EXECUTIVE SERVICE

    Senator Murkowski. Let me ask you about the Senior 
Executive Service (SES). Again, this is an area that has been 
used within the executive branch, but I am trying to understand 
why you believe within the AOC we need to have or we need to 
create these Senior Executive Service, similar to executive 
branch authority. You are talking about 37 positions here, 
which seems like a lot of senior level positions for an agency 
that has about a three-fourths blue collar, one-fourth white 
collar workforce.
    So can you explain to me why you are seeking this 
authority, what you hope to gain from it, and give me a bird's 
eye view of what the 37 positions are again, that is a lot of 
folks here. What is the budgetary impact of converting 37 
positions into Senior Executive Service positions? Can you just 
speak to this issue for a moment, if you will?
    Mr. Ayers. Absolutely, Senator. First, our objective and my 
objective is to be the best. To be the best. To be able to 
recruit and retain the best people. I know that it is certainly 
your objective as well. We do not believe today we are poised 
to do that at the senior executive level because our pay and 
benefits package does not match those in the executive branch 
of the Government.
    Senator Murkowski. Should it?
    Mr. Ayers. I am sorry?
    Senator Murkowski. Should it?
    Mr. Ayers. I think it should, absolutely. Certainly not on 
the pay side. We recognize that our pay we cap below Member 
pay. So we are not seeking authority on pay, and we do not 
believe that this flexibility will have any impact in the short 
term on funding.
    I think it is important to note that when we go to recruit 
someone from the executive branch there are disparities, a 
great example of that is the amount of annual leave an 
executive can carry over. Today our executives can carry over 
240 hours. In the executive branch, all of them can carry over 
720 hours. So why would one of them be enticed to come work for 
the Architect of the Capitol when they are going to have to 
give up that benefit that they have, that the Government 
Accountability Office (GAO) has, that the Library of Congress 
has, but the Architect does not?
    So I think the facts are very clear that benefits packages 
do not match and we think they should. We really think that 
there should be this easy exchange of executive talent between 
the executive branch and the legislative branch.
    Senator Murkowski. What about the number, the fact that you 
have got 37? It seems like a high number of senior level 
positions, again in an area where most of your workforce is not 
the senior level. It is more the blue collar level.
    Mr. Ayers. Of those 37, all of them, I believe, are 
existing positions, and they are already paid at the Senior 
Executive Service level. The only thing that they would be 
affected by is a change in benefits' package for the annual 
leave carry over that I mentioned earlier. So they are not new 
employees.
    Senator Murkowski. These are existing people that you are 
just changing their ability to accrue annual leave, carryover, 
and bonuses. So what you are saying is that this does not cost, 
in terms of what you will see with your budget. It is more of a 
recruitment or a retention tool.
    Mr. Ayers. That is exactly right. I think it is important 
for transparency. There is no question in the first year it 
does not cost us. In ensuing years, when employees retire they 
are paid out for their annual leave that they still have on the 
books. So this would enable an executive to accrue a larger 
amount of leave on the books than one would normally have 
today, but that is many years down the road.
    Senator Murkowski. Would this have any impact on salary 
increases in future budget requests?
    Mr. Ayers. No, ma'am, it would not.
    Senator Murkowski. Mr. Chairman, thank you.

                <greek-l>AOC deg.CAPITOL VISITOR CENTER

    Senator Nelson. The Capitol Visitor Center. You were 
provided $621 million for the construction, but due to reduced 
delay claims by sequence 2, a contractor, GAO currently 
estimates that the total cost to complete the Capitol Visitor 
Center is $591 million. This leaves you with a balance of 
approximately $31 million. Are those facts correct, and is 
there a remaining balance of $31 million from this project?
    Mr. Ayers. I do not believe that that is exactly correct, 
but there is no question----
    Senator Nelson. There is some money----
    Mr. Ayers [continuing]. That there will be at least $20 
million available for other priorities. I think that is a great 
testament to the team that negotiated the final claims on this 
project, and they did just a terrific job and saved us 
considerable money.
    Senator Nelson. Well, anything that comes under the 
ultimate price tag is a savings and it should be viewed that 
way. There is no doubt. I appreciate that.
    I guess the question I have is could the funding, that 
additional $20 million that is there--could that be applied 
toward your fiscal year 2011 needs?
    Mr. Ayers. Yes, Mr. Chairman, absolutely.

                   <greek-l>AOC deg.CVC FTE INCREASE

    Senator Nelson. Now, you request four FTEs for the Capitol 
Visitor Center. Does that mean you are not adequately staffed 
at the CVC now? For example, what are the duties of an 
interpretive curator? Are they not already available? Or is 
there a necessity to add that particular position or positions?
    Mr. Ayers. We are requesting an increase of four FTEs for 
the Capitol Visitor Center, and I view those in two groups. The 
first group and the highest priority, the must-haves, are 
converting our two congressional liaison positions that are 
currently on board in a temporary capacity to permanent 
positions. They really have shown that they are extremely 
beneficial, not just for us but for Members, in working and 
providing tours at the CVC. So we think those are must-haves.
    The second two are in a second tier of more improving 
operations and improving efficiencies. We think, certainly, a 
curator could help improve our operations in interpreting the 
things that are in the Exhibition Hall. But an interpretation 
curator and a special assistant do not rise up to the must-have 
level of our two congressional liaisons.

           <greek-l>AOC deg.CAPITOL POWER PLANT FTE INCREASE

    Senator Nelson. And then if we go to the Capitol Power 
Plant, your request there includes 3 additional FTEs for that 
plant, bringing the total to 98. Have you recognized any 
savings that would apply to reducing the number of FTEs as a 
result of the installation of a digitized control system at the 
plant? In other words, further use of technology should be able 
to help you reduce the reliance on human power. Have you 
realized anything or can you realize anything there?
    Mr. Ayers. Well, we do think that there are some savings to 
be realized there. The numbers you mentioned are our FTE cap. 
The FTE cap at the Power Plant is 95. These 3, which I will 
address in a moment, would increase to 98. But on-board 
strength, we have somewhere in the low to mid 70s. We have 
purposefully, for the past 2 to 3 years, held recruitment very, 
very low in the Power Plant to accommodate these efficiencies. 
I know when I became Acting Architect 3 years ago, I think we 
were at 85 on-board people and we are now about 10 less than 
that. So I think we have been driving some efficiencies out of 
there.

                    <greek-l>AOC deg.UTILITY METERS

    The three new positions are, interestingly enough, a new 
mission area for the Architect. The Energy Independence and 
Security Act required us to install utility meters throughout 
all of our facilities. That resulted in about 320 new utility 
meters, very high-tech pieces of equipment installed in all of 
our buildings. These three new employees would operate and 
maintain those meters, do the preventive maintenance on those 
meters, as well as read the results of those meters.

                <greek-l>AOC deg.SUSTAINABILITY PROGRAM

    Senator Nelson. In that regard, you are requesting $11.2 
million worth of projects and $10 million in the operations 
budget with an energy reduction focus. Is that different than 
what we are talking about here with the Power Plant, or is it a 
part of it, or is it separate from it? I will ask it that way.
    Mr. Ayers. It is certainly separate from the Capitol Power 
Plant appropriation, but it is part of our comprehensive 
sustainability program to meet the Energy Independence and 
Security Act goals of a 3 percent energy reduction per year.
    Senator Nelson. Well, as you expect to use the $11.2 
million worth of projects and $10 million in the operations 
budget, if funded, what will that achieve in terms of overall 
reductions in costs to the budget? In other words, I think you 
are spending money to try to bring down the costs. What would 
you expect in the way of energy savings in terms of dollars?
    Mr. Ayers. In terms of dollars, I think a great example of 
that is the energy savings performance contract that we have 
awarded here in the Senate. This public/private partnership, 
where a private company is investing $42 million in the Senate 
office buildings, and ultimately, reducing energy by 36 
percent, which is almost $4 million a year in energy savings 
being driven out of the Senate office buildings. Of course, 
initially that money goes to repay this company that is doing 
the work and borrowing the money. In the end, we keep those 
investments, we keep the upgrades and we reap the benefits 
after they are repaid.
    Senator Nelson. How long will it take us to recoup the $22 
million? How many years do you think it is going to take us to 
where we have recovered that? It is good to reduce energy use. 
There is no doubt. And it is also good to reduce the cost that 
you get from energy reduction. As you try to correlate those 
two, how long will it take us to be neutral or have a net 
reduction in our costs?
    Mr. Ayers. I believe here in the Senate, the projection is 
18 to 20 years.
    Senator Nelson. What about other buildings or other 
facilities? Do you have anything that might--in other words, is 
this $22.2 million all in the Senate office buildings?
    Mr. Ayers. It is. It is $42 million, the investment they 
are making just in the Senate. We have a similar arrangement in 
the Capitol----

                    <greek-l>AOC deg.PROJECTS BUDGET

    Senator Nelson. Excuse me. That they are making. But you 
have got $22.2 million in your operations budget in projects. 
Maybe I am not understanding what those dollars are for.
    Mr. Ayers. Those dollars are primarily for two things. One 
is enabling us to manage these energy savings performance 
contracts across Capitol Hill. For these contracts that we have 
entered into, we are investing nearly $100 million. So we are 
looking for contract help: engineers to help manage that work 
and coordinate that work and be sure it is installed properly 
and commissioned properly. That is primarily what much of that 
money is for.
    Senator Nelson. And then it would take us about 18 years to 
get the full benefit of what it is we are trying to do in terms 
of dollars.
    Mr. Ayers. That is correct.
    Senator Nelson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Chrisler, I do not want to have all the attention 
focused on Mr. Ayers here, so we will ask you a couple.

                   <greek-l>OOC deg.HAZARDS DECREASE

    You referred to the number of hazards that have been 
identified and the fact that we have seen a decrease from 
13,000 in the 109th Congress to 9,000 in the 110th to an 
estimated 6,000 in the 111th. And I think that is good. I would 
hope that given a level of outreach and education efforts, we 
would see the number of hazards continue to go down, and I 
think that is clearly the goal here.
    Can you tell me how we count hazards? Is it every 
overloaded outlet that is counted? And then when they unload it 
or put the power strip in or what have you, is it still 
counted? How do you account for these multiple hazards?
    Ms. Chrisler. Thank you, Senator. It is a very good 
question.
    What we do is we have inspectors that go out and inspect 
each office space and they identify the hazards, they identify 
violations of the Occupational Safety and Health Administration 
(OSHA) standards. Those are noted. Sometimes they are abated 
right on the spot.
    Senator Murkowski. And are they counted if they are abated?
    Ms. Chrisler. Yes, they are, but they are counted--if they 
are abated on the spot, no. So I am mistaken.
    Senator Murkowski. So if you unplug it, then you are good.
    Ms. Chrisler. You are good.
    Senator Murkowski. All right.
    Ms. Chrisler. If it takes something other than right on the 
spot, then yes, that is counted as a hazard within the 
findings.
    [The information follows:]

    During the hearing, I mistakenly indicated that the OOC 
does not record hazards found during biennial inspections if 
they are remedied immediately. In fact, OOC notes all hazards 
identified during a biennial inspection, whether they are 
abated on the spot or abated at a later time. This method of 
recording hazards is consistent with the longstanding practice 
followed by Occupational Safety and Health Administration 
inspectors. The OSHA Field Operations Manual provides: ``Safety 
and health violations shall be brought to the attention of 
employer and employee representatives at the time they are 
documented.'' Field Operations Manual, Directive No. CPL 02-00-
148 at 3-20 (Occupational Safety and Health Administration 
November 9, 2009) (emphasis added). In addition, this method of 
recording hazards allows the OOC to provide Congress with 
consistent and reliable data, as explained below.
    The CAA requires the OOC to inspect legislative branch 
facilities for compliance with occupational safety and health 
standards at least once each Congress and report those results 
to the Speaker of the House, the President pro tempore of the 
Senate, and employing offices responsible for correcting 
violations. CAA Section 215(e), 2 U.S.C. 1341(e). As such, the 
OOC is required to notify Congress of the violations it 
identified irrespective of when those violations are remedied. 
Alongside the hazard findings, the OOC provides abatement 
information to provide context for the findings and establish a 
clear picture of what hazards remain. Although OOC encourages 
early abatement and applauds employing offices for their 
efforts to immediately abate hazards, OOC does not note a 
distinction in its identification of hazards if a hazard is 
abated immediately or if a hazard is abated at a later time: at 
the time of the inspection, a hazard that threatened workers' 
safety and/or health was present, and the CAA requires the 
identification of those hazards and a submission of same to 
Congress. The OOC is pleased with the continuing decline in 
hazards seen over the past three Congresses, and is hopeful 
that the abatement process continues to progress as well.

                 <greek-l>OOC deg.COMPLIANCE EDUCATION

    Senator Murkowski. Is it fair to say then that with 
continuing education and awareness, we are able to do within 
our own offices a significant level of compliance just on our 
own and we are learning so that as the years progress, 
hopefully, we will be near zero. I do not know if it is 
possible to eliminate all hazards, but I am assuming that is 
the direction that we are taking.
    Ms. Chrisler. Sure, absolutely it is. And that is part of 
where we are hoping to go in the future, as we see the decrease 
in hazards. And as you mentioned, it is partly due to the 
education efforts of our staff, the increased awareness of the 
staff and the Members' offices and the employing offices, and 
in part due to the employment counsel's offices as well in 
assisting us in conducting the inspections and providing the 
education that is necessary. So, yes, we are looking for the 
employing offices to be able to spot some of these hazards 
themselves and correct them right on the spot. That is part of 
our goal is to equip the employing offices with that type of 
knowledge so that they are able to utilize our office as a 
resource, as a kind of checkpoint to make sure that they are 
right on track.
    Senator Murkowski. Good. I appreciate that.
    I also appreciate the comment that you made in your opening 
statement about working in collaboration with OSHA to provide 
some assistance, rather than bringing on new or additional 
staff working with them in a collaborative effort. I think that 
that is good. If there are other opportunities to do similar 
collaborating efforts, I would certainly encourage that.

                       <greek-l>OOC deg.IT SYSTEM

    Let me ask you one more question about the IT system. You 
mentioned that you have got a somewhat unique system in that 
you are required to have two computers for each employee. 
Clearly inefficient. It obviously adds increased costs to the 
agency.
    What do you anticipate your cost savings to be once the new 
system is in place? What is the total request for the system 
upgrade? And if the funding in fiscal year 2011 does not 
support the full cost of the system, how much additional 
funding do you figure you need in the out-years to kind of take 
care of this?
    Ms. Chrisler. Yes, thank you. The system that we have is 
unique. Because of the confidential information that our office 
maintains with respect to our dispute resolution program, we 
have taken great steps to ensure that that type of information 
remains protected and remains secure. The system that we have 
currently in place provides that protection, but it also 
inhibits employees from being able to work as productively as 
they could. Literally, there is a switch box that is on 
everyone's work station and employees literally have to 
transfer back and forth between computers when they are wanting 
to work. One of the systems is an internal system where we can 
communicate internally and the other one connects to the 
outside world, the Internet. And the two systems are not 
compatible.

                    <greek-l>OOC deg.SYSTEM SECURITY

    Ms. Chrisler. We have obtained the technical skills of an 
IT staff who has developed a program and a system by which we 
would be able to maintain that level of security but eliminate 
the two computers. So that is something that will result in a 
cost savings, will result in efficiency, will allow us to have 
a complete COOP plan for teleworking purposes. The total cost 
of the program is something that I can provide to you for the 
record at a later date.
    [The information follows:]

    The total investment for new system upgrade equals 
$110,000, which encompasses the following: equipment ($60,000--
fiscal year 2011 budget request) and installation ($50,000--
fiscal year 2012 budget request). We expect to recoup the new 
system investment through cost savings over a 2\1/2\ year 
timeline ($110,000 total upgrade/$43,475 total savings equals 
2.53 years).

    Ms. Chrisler. Should we not receive the funding for the 
improvements, we will have to reevaluate how to go about 
developing this plan. Of course, it is not just a 1 fiscal year 
project. It is something that we can break into pieces, if we 
have to. Some things will have to be delayed. The 
implementation would be delayed, but perhaps the development 
could continue on some levels.
    Senator Murkowski. Well, if you could get that information 
and kind of lay that out, that would be helpful.
    Ms. Chrisler. Thank you.
    Senator Murkowski. Thank you.
    Senator Nelson. Thank you.
    [The information follows:]

    Ideally, OOC would purchase the equipment in fiscal year 
2011 for $60,000 and perform the installation in fiscal year 
2012 for $50,000. However, if funding is not provided in fiscal 
year 2011, OOC would have to delay the implementation of the 
new system. The cost would probably not increase dramatically 
if the timeline for implementation was delayed; the delay would 
simply move the cost to another fiscal year. However, not 
receiving the full requested budget for fiscal year 2011 and 
delaying the implementation increases the vulnerability of the 
agency for disaster recovery planning (COOP), reduces any 
efficiencies which could be gained through the ability to tele-
work, and impacts the agency's cybersecurity initiatives.
    Because the new IT system will allow for the use of one 
computer per work station as opposed to the current use of two, 
the agency anticipates enjoying significant cost-savings, not 
only in physical equipment, but in human resources as well.
    The total annual estimated savings equals $43,475; $22,475 
of which is attributed to equipment and software, $21,000 of 
which is attributed to Human Capital. Because the new IT system 
will require the agency to maintain only one computer per work 
station, as opposed to the two it currently maintains, routine 
upgrades will be fewer, resulting in significant savings.
    Mindful of the costs associated with maintaining current 
technology for hardware and software compatibility, the agency 
looks to replace its employee PCs every 3 years. As such, once 
the system upgrades are in place, and only one PC per work 
station is being maintained, the agency will enjoy an annual 
savings of $7,950 or $23,800 over the 3-year replacement cycle. 
Annual software costs will result in a savings of $11,300; and 
purchases of peripheral equipment will yield an additional 
savings of $3,225.
    The new IT system contemplated by the agency will result in 
a $21,000 annual savings of IT staff resources. As the system 
currently operates, IT staff allocates 25 percent of their time 
annually for support and maintenance of the internal computer 
system. Once the new system is implemented, the staff would be 
able to utilize that 25 percent toward our IT Security and COOP 
initiatives, which have gone understaffed due to the time 
commitment necessary to maintain two computer systems.

                 <greek-l>OOC deg.HAZARD PRIORITIZATION

    Senator Nelson. Ms. Chrisler, in establishing the 6,000 
hazards, do you then categorize them as to priorities, priority 
1, 2, 3, 4, 5? I assume that not every hazard is co-equal with 
every other hazard. So do you have a system of prioritization?
    Ms. Chrisler. Yes, Senator, we do. What we have is what we 
call a RAC system, and it is R-A-C. It is a risk assessment 
code. And when the hazards are identified, they are labeled 
with this RAC: RAC 1 being posing life-threatening potential, 
life-threatening issues; RAC 2 being dangerous and could cause 
bodily harm; and 3 and 4 of lesser degree of severity.
    The majority of the 6,000 violations that we saw are not 
RAC 1. So that is very comforting to know. They fall more in 
the range of RAC 3, which is they are significant but they do 
not rise to the level of the immediate threat to life safety.
    Senator Nelson. Well, I know that you pay close attention 
to OSHA and their inspection programs. Do we know what changes 
are being planned in the 112th Congress on OSHA inspection 
programs?
    Ms. Chrisler. That is something that we certainly will look 
into, Senator, and be happy to provide to you for the record.
    Senator Nelson. Sure. That would be helpful. Thank you.
    [The information follows:]

    The Secretary of Labor (``Secretary'') is responsible for 
promulgating occupational safety and health standards under the 
Occupational Safety and Health Act of 1970, 29 U.S.C. sections 
651 et seq. Executive Order 12866 requires the Secretary to 
publish semiannually a Regulatory Agenda listing all 
regulations the Department of Labor expects to have under 
active consideration for promulgation, proposal or review 
during the coming year. The Department's most recent Regulatory 
Agenda was published on December 7, 2009 and can be found in 
its entirety at www.reginfo.gov. The Department's Regulatory 
Plan, which is a subset of the Regulatory Agenda, ``highlights 
the most noteworthy and significant regulatory projects that 
will be undertaken by its regulatory agencies,'' including the 
Occupational Safety and Health Administration (``OSHA''). 74 
Fed. Reg. No. 233 at 52 (Dec. 7, 2009). The most recent 
Regulatory Plan lists four OSHA regulations: a modification of 
OSHA's Hazard Communication Standard; a rule setting 
Occupational Injury and Illness Recording and Reporting 
Requirements; a health standard regulating Crystalline Silica 
exposure; and an update of the 1971 Cranes and Derricks 
standard applicable to the construction industry. Id.
    As certain OSHA standards apply in the legislative branch 
pursuant to section 215(d) of the Congressional Accountability 
Act (``CAA''), 2 U.S.C. section 1341(d), the OOC and its Board 
of Directors will continue its close monitoring of OSHA's 
regulatory activity in the coming year and assess its effect on 
the legislative branch.

             <greek-l>AOC deg.CAPITOL POLICE RADIO PROJECT

    Senator Nelson. I do not know that I have any more 
questions to ask. I guess I could ask about the radio system 
here. I have got a question on that.
    The Capitol Police radio project. Mr. Ayers, I know you are 
responsible for the facilities portion of that project. Can you 
give us an outline of how the facilities portion of the project 
is undergoing--or how that is going on right now?
    Mr. Ayers. I would be happy to, Mr. Chairman. In support of 
the Capitol Police project, we are undertaking three activities 
on that project. The first is the design and construction of 
the primary site, which is where the radio operators and radio 
infrastructure will be, in Manassas. We are right on schedule 
and on track to complete that by December 2010. We have a 
contract awarded, and we are going through the contract design 
and submittal phase right now. So we see no issues there.
    The second portion is the design and construction and 
property acquisition of the mirror site, or the backup site, 
here just off of Capitol Hill. We are currently in negotiations 
with the leaseholder now, both negotiations on the lease, and 
on the construction side. We do not see any issues meeting a 
March 2011 completion date to enable the Capitol Police vendor 
to begin installing their radio equipment.
    And then last, and probably most importantly for me, is 
helping the Capitol Police contractors install and navigate 
through all of the office buildings and the Capitol Building 
and to installing their infrastructure, electricity, antenna 
wires, and antennas through the buildings. And we are working 
very closely with them now. I know that they have completed the 
design for the Senate office buildings. They are nearing 
completion of the design for the Capitol and House office 
buildings. We do not see any issues there as well.
    So things are progressing well and we are very confident 
about completing our three tasks on schedule.
    Senator Nelson. Well, I appreciate the update. It is good 
to know that it is on schedule and not slipping and staying 
within the budget as well?
    Mr. Ayers. Yes, sir.
    Senator Nelson. Well, if there is nothing else to ask, 
there is no reason to ask it. Right?
    So I appreciate very much your being here today, your work, 
and the work of all your associates who, together with you, are 
doing such an outstanding job for us. Thank you for your candor 
and for your willingness to work with us. I know with such 
difficult times that we face right now with unemployment at a 
high level, it has also been a very energizing time because 
with all the snow and with everything else, it seems to come 
all at one time when everybody is saying, well, we need to slow 
down our costs at a time when the activity is increasing. It 
seems like those should not cross. They should match. But we 
are faced with difficult times, and I appreciate the fact that 
everybody understands that and we will try to work our way 
through it.
    So thank you.
    Senator Murkowski, do you have any closing comments?
    Senator Murkowski. Thank you, Mr. Chairman, and I look 
forward to working with the Architect of the Capitol, the 
Office of Compliance, and others as we kind of slog through how 
we prioritize the needs again for those who are working and 
visiting our capital. Thank you.
    Senator Nelson. In addition to thanking our witnesses 
today, I want to thank Robin Morey, the Senate Superintendent, 
for keeping the room cool today.

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess until Thursday, April 15, 
when we will meet again in this room at 2:30 to take testimony 
on the fiscal year 2011 budget request of the Government 
Accountability Office, the Government Printing Office, and the 
Congressional Budget Office. Thank you.
    [Whereupon, at 4 p.m., Thursday, March 18, the subcommittee 
was recessed, to reconvene at 2:30 p.m., Thursday, April 15.]

</pre></body></html>
